<html>
<title> - LACKING A LEADER: CHALLENGES FACING THE SSA AFTER OVER 5 YEARS OF ACTING COMMISSIONERS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


              LACKING A LEADER: CHALLENGES FACING THE SSA
               AFTER OVER 5 YEARS OF ACTING COMMISSIONERS

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON SOCIAL SECURITY

                                 OF THE

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 7, 2018

                               __________

                          Serial No. 115-SS08

                               __________

         Printed for the use of the Committee on Ways and Means
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                 U.S. GOVERNMENT PUBLISHING OFFICE                    
33-796                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------




                    COMMITTEE ON WAYS AND MEANS

                      KEVIN BRADY, Texas, Chairman

SAM JOHNSON, Texas                   RICHARD E. NEAL, Massachusetts
DEVIN NUNES, California              SANDER M. LEVIN, Michigan
DAVID G. REICHERT, Washington        JOHN LEWIS, Georgia
PETER J. ROSKAM, Illinois            LLOYD DOGGETT, Texas
VERN BUCHANAN, Florida               MIKE THOMPSON, California
ADRIAN SMITH, Nebraska               JOHN B. LARSON, Connecticut
LYNN JENKINS, Kansas                 EARL BLUMENAUER, Oregon
ERIK PAULSEN, Minnesota              RON KIND, Wisconsin
KENNY MARCHANT, Texas                BILL PASCRELL, JR., New Jersey
DIANE BLACK, Tennessee               JOSEPH CROWLEY, New York
TOM REED, New York                   DANNY DAVIS, Illinois
MIKE KELLY, Pennsylvania             LINDA SANCHEZ, California
JIM RENACCI, Ohio                    BRIAN HIGGINS, New York
PAT MEEHAN, Pennsylvania             TERRI SEWELL, Alabama
KRISTI NOEM, South Dakota            SUZAN DELBENE, Washington
GEORGE HOLDING, North Carolina       JUDY CHU, California
JASON SMITH, Missouri
TOM RICE, South Carolina
DAVID SCHWEIKERT, Arizona
JACKIE WALORSKI, Indiana
CARLOS CURBELO, Florida
MIKE BISHOP, Michigan
DARIN LAHOOD, Illinois

                     David Stewart, Staff Director

                 Brandon Casey, Minority Chief Counsel

                    SUBCOMMITTEE ON SOCIAL SECURITY

                      SAM JOHNSON, Texas, Chairman

VERN BUCHANAN, Florida               JOHN B. LARSON, Connecticut
MIKE KELLY, Pennsylvania             BILL PASCRELL, JR., New Jersey
GEORGE HOLDING, North Carolina       JOSEPH CROWLEY, New York
JASON SMITH, Missouri                LINDA SANCHEZ, California
TOM RICE, South Carolina
DAVID SCHWEIKERT, Arizona


                            C O N T E N T S

                               __________
                                                                   Page

Advisory of March 7, 2018 announcing the hearing.................     2

                               WITNESSES

Elizabeth Curda, Director, Education, Workforce, and Income 
  Security, Government Accountability Office.....................     8
Valerie Brannon, Legislative Attorney, Congressional Research 
  Service........................................................    31
Max Richtman, President and CEO, National Committee to Preserve 
  Social Security and Medicare...................................    44
    (Truth in Testimony).........................................    50
Max Stier, President and CEO, Partnership for Public Service.....    51
    (Truth in Testimony).........................................    61

                   MEMBER SUBMISSIONS FOR THE RECORD

Reuters: Banks scramble to fix old systems as IT `cowboys' ride 
  into sunset, by Anna Irrera....................................    65
Wall Street Journal: Cobol is Dead. Log Live Cobol!, by Gary 
  Beach..........................................................    69
Daily News: Feds' bureaucratic hellscape gnaws at New Yorkers' 
  Health, hope, by Glenn Blain...................................    83

                        QUESTIONS FOR THE RECORD

Questions from The Honorable Sam Johnson, to Valerie Brannon.....    87

                   PUBLIC SUBMISSIONS FOR THE RECORD

Mary L. Jones, statement.........................................    92

 
   LACKING A LEADER: CHALLENGES FACING THE SSA AFTER OVER 5 YEARS OF 
                          ACTING COMMISSIONERS

                              ----------                              


                        WEDNESDAY, MARCH 7, 2018

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Social Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 1100, Longworth House Office Building, Hon. Sam Johnson 
[chairman of the subcommittee] presiding.
    [The advisory announcing the hearing follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman JOHNSON. Good morning and welcome to today's 
hearing.
    Americans count on Social Security to provide important 
benefits. In fact, Social Security pays benefits to more than 
60 million people a year, totaling nearly $1 trillion. It is 
the largest single program in the Federal budget responsible 
for a quarter of all Federal spending.
    When Social Security became an independent agency in 1995, 
Congress created the position of a Social Security Commissioner 
to run the agency. This position has a fixed 6-year term that 
must be Senate confirmed, just like the Department Secretaries 
and heads of other high level Federal agencies. But Social 
Security has been without a Senate-confirmed Commissioner since 
the most recent term expired on January 19, 2013. That is more 
than 5 years. This is the largest single period of vacancy for 
the head of a department or major Federal agency since Social 
Security became independent. And that is not right. Not only 
has Social Security been led by Acting Commissioners, but for 
over 3 years we haven't even had a nominee for the Senate to 
consider. The President needs to nominate a Commissioner 
without further delay. And once he does, the Senate should move 
quickly because the American people have waited too long.
    Yesterday GAO announced the Social Security Administration 
is in violation of the Vacancy Reform Act. Without objection, 
the opinion will be made a part of the record.
    Chairman JOHNSON. This is a big deal and a reminder that 
Social Security needs a nominee now. Acting Commissioners can 
keep an agency on a course that is already set, but they don't 
have the same authority to lead as a Senate-confirmed 
Commissioner. You will hear today an Acting Commissioner just 
isn't empowered to make strategic decisions regarding the long-
term operation of the agency. The Social Security 
Administration needs the strong and consistent leadership of a 
Senate-confirmed Commissioner to keep the agency focused on 
providing the service Americans expect, need, and deserve.
    We are now more than 5 years into a 6-year term. The 
American people can't afford to wait any longer. Mr. President, 
we need you to nominate a Commissioner now.
    I want to thank our witnesses for being here today, and I 
look forward to hearing your testimony.
    I now recognize Mr. Larson for his opening statement.
    Mr. LARSON. Thank you, Mr. Chairman. And I want to thank 
our witnesses as well for joining us here today. And I want to 
associate myself with the remarks of our chairman.
    This is a travesty that this position with so vital an 
agency hasn't been filled. And as I think everyone will 
remember--and I want to commend the President. I recall vividly 
when he stood among 16 other candidates for office in his own 
party and spoke forthrightly about the need to not only 
preserve but to expand Social Security. So we know where his 
heart and his sentiment lies. But what we need, I think, as the 
chairman has underscored, is the need for us to take action and 
a need for us to put a commissioner in that position.
    I think what makes the sense of urgency for this, and I 
think as everyone in the audience knows, and certainly the 
people on this committee, that 10,000 baby boomers a day--let 
me repeat that, 10,000 fellow Americans a day become Social 
Security eligible. So with 10,000 becoming eligible a day, it 
is paramount that we put somebody in charge at the head of an 
agency, an agency where we have seen a 15 percent increase, 
almost, of the number of people who are in need of Social 
Security and prevailing upon it while it has been cut 11 
percent. We need to address that as well. And this committee is 
the appropriate place to do that.
    Both Mr. Johnson and myself have bills to address this. It 
is my hope that we will be able to have had a hearing on those 
bills and be able to address the underlying concerns that so 
many Americans who depend upon Social Security and for way too 
many the only source of retirement that they have.
    And so this is a vital lifeline to the American citizens. 
This is why it is paramount. I commend the chairman for calling 
this meeting. And I further commend him for his call of urgency 
to make sure that we install and confirm--nominate and confirm. 
Now, I have several suggestions as well for the President 
including amongst them Max Richtman, who is--you are going to 
hear from today, who heads-up the national committee that 
preserves Social Security and Medicare.
    And Nancy Altman, or Judith Stein, or Bill Archer, the 
former fellow Texan who is still quite active himself. Earl 
Pomeroy the former insurance commissioner from South Dakota. 
John Tanner. Or my predecessor Barbara Kennelly.
    I want to commend Nancy Berryhill for her work that she has 
been doing in an acting capacity. But truly, as the chairman 
has indicated and underscored, we need to make sure that we 
both nominate and confirm and put somebody at the head of this 
vital agency for all of America.
    With that, Mr. Chairman, I will yield back and anticipate 
the--glad to participate in the questioning and listening to 
what our witnesses have to say.
    Chairman JOHNSON. Okay. Thank you so much. I appreciate 
your statement.
    As is customary, any Member is welcome to submit a 
statement for the hearing record. And before we move on to our 
testimony, I want to remind our witnesses to please limit your 
statements to 5 minutes. However, without objection, all of the 
written testimony will be made a part of the hearing record.
    We have four witnesses today. Seated at the table are 
Elizabeth Curda, Director of Education, Workforce, and Income 
Security, Government Accountability Office. Valerie Brannon, 
Legislative Attorney, American Law Division, Congressional 
Research Service. Max Richtman, President and CEO, National 
Committee to Preserve Social Security and Medicare. And Max 
Stier, President and CEO, Partnership for Public Service.
    Ms. Curda, welcome. Thanks for being here. Please proceed.

 STATEMENT OF ELIZABETH CURDA, DIRECTOR, EDUCATION, WORKFORCE, 
     AND INCOME SECURITY, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. CURDA. Chairman Johnson, Ranking Member Larson, and 
members of the subcommittee, I am pleased to be here to discuss 
the significant demographic, technological, and management 
challenges facing the Social Security Administration's 
leadership as they seek to deliver timely and accurate services 
to Americans.
    In fiscal year 2017, SSA paid out nearly 1 trillion dollars 
in retirement and disability benefits to 67 million 
beneficiaries, and an average of 420,000 people call or visit 
one of its 1,200 field offices every day. However, with the 
baby boom generation entering their disability prone and 
retirement eligible years, workloads will continue to increase 
just as SSA faces a depletion of institutional knowledge and 
leadership from waves of retiring employees.
    SSA also faces rapidly changing demands from Americans 
increasingly seeking virtual access to services while it 
continues to rely on antiquated systems to process claims. GAO 
has issued numerous reports on these challenges with 
recommendations to address them and placed SSA's disability 
programs on GAO's high risk list.
    A common theme that cuts across our work is the need to 
modernize how SSA does business, which SSA has acknowledged. 
While SSA has agreed with and taken action on many of our 
recommendations, many also remain un implemented including some 
we have suggested are a high priority for top leadership 
attention.
    The challenges I will discuss today fall into three areas. 
First, managing disability workloads and program integrity. 
Second, modernizing physical infrastructure and service 
delivery. And third, modernizing information technology.
    With regard to managing disability workloads and program 
integrity, while SSA significantly reduced the number of 
pending initial claims over the past 7 years, pending appealed 
claims rose from 770,000 to 1.1 million over the same period. 
And these claims now take an average of 605 days to process.
    Although SSA has a plan and initiatives underway to reduce 
its appeals backlog, we reported that some of SSA's appeals 
initiatives are either contingent on additional funding, such 
as hiring, or have met with limited success when tried in the 
past. Our work has also shown that SSA faces challenges 
ensuring the integrity of its disability programs. For example, 
one case of fraud reported by the SSA's inspector general 
involved 70 individuals and 14 million in fraudulent benefits.
    In 2017, SSA established an office responsible for 
coordinating antifraud programs across the agency and gathered 
information on some fraud risks. However, we found that SSA had 
not fully assessed its fraud risks, had not developed an 
overall antifraud strategy, and did not have a complete set of 
metrics to determine whether its antifraud efforts have been 
effective. SSA has agreed to our recommendations and begun to 
take action on some of them.
    Turning to modernizing service delivery and infrastructure, 
advances in technology have the potential to greatly improve 
SSA's service delivery while reducing its reliance on costly 
office space. For example, individuals can now apply for some 
disability benefits online rather than in person. However, we 
found that SSA did not have readily available data on problems 
customers had with online applications or why. In addition, the 
agency had not established performance goals to determine 
whether these new service delivery options, such as off-site 
kiosks, are succeeding. We also found that SSA has not 
developed a long-term plan for right-sizing its office space to 
reflect these types of changes in service delivery. We 
recommended that SSA improve its building space plans and do 
more to monitor and assess online and remote service delivery. 
And SSA agreed to take action.
    Finally, regarding the modernization of SSA's information 
technology, SSA's legacy information technology systems are 
increasingly difficult and expensive to maintain. We identified 
SSA's spending on the operations and maintenance of its IT 
infrastructure as among the 10 largest IT expenditures of 
Federal agencies in fiscal year 2015. We recommended that the 
agency identify and plan to modernize or replace legacy systems 
in accordance with OMB guidance. SSA agreed and reported that 
it is finalizing an information technology modernization plan.
    In summary, the actions SSA's executive leadership will 
need to take to modernize the management of its disability 
programs, its physical infrastructure, its online service 
delivery and information technology assets will require vision 
and sustained long-term attention.
    This concludes my prepared statement, and I am happy to 
answer the committee's questions.
    [The prepared statement of Elizabeth Curda follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                          
    Chairman JOHNSON. Thank you. I appreciate your testimony.
    Ms. Brannon, welcome. Thanks for being here. Please 
proceed.

STATEMENT OF VALERIE C. BRANNON, LEGISLATIVE ATTORNEY, AMERICAN 
          LAW DIVISION, CONGRESSIONAL RESEARCH SERVICE

    Ms. BRANNON. Chairman Johnson, Ranking Member Larson, and 
members of the subcommittee. My name is Valerie Brannon. I am a 
legislative attorney in the American Law Division of the 
Congressional Research Service. Thank you for inviting me to 
testify today on behalf of CRS.
    I will be addressing the statutes that may authorize 
someone to serve as acting commissioner of Social Security in 
the event of a vacancy in the office. There are two statutes 
that may authorize a governmental official to serve as acting 
commissioner. The first is the Federal Vacancies Reform Act of 
1998, or the Vacancies Act, which generally governs acting 
officers serving in vacant advice and consent positions in the 
executive branch. The second statute is Section 702 of the 
Social Security Act which contains a provision pertaining 
specifically to a vacancy in the office of the commissioner.
    The first statute, the Vacancies Act, generally governs 
vacancies in executive branch positions that require 
appointment through the advice and consent of the Senate. It 
usually provides the exclusive means for temporarily 
authorizing an acting official to perform the functions and 
duties of any such position. The Vacancies Act places two kinds 
of limitations on acting service. First, the statute only 
allows certain classes of employees to perform the duties of a 
vacant position. And, second, it specifies that such employees 
may perform these duties for only a limited period of time.
    The Vacancies Act allows three classes of officials to 
serve as acting officers. First, as a default rule, once the 
office becomes vacant, the first assistant to that office 
automatically becomes the acting officer. Alternatively, the 
President may direct two other classes to serve as an acting 
officer instead of that first assistant. Either a person who is 
currently serving in a different advice and consent position or 
certain senior employees working in the same agency.
    The Vacancies Act also limits the amount of time that a 
vacant advice and consent position may be filled by an acting 
officer. There are two independent time limits. The first is a 
fixed term of days that runs from the date that the vacancy 
arose, and the second allows an acting officer to serve while a 
nomination to the position is pending in the Senate.
    The second statute that may govern a vacancy in the 
commissioner's office is Section 702 of the Social Security Act 
which creates the positions of the commissioner and the deputy 
commissioner. Section 702 states that in the event of a vacancy 
in the office of the commissioner, the deputy commissioner 
shall be acting commissioner unless the President designates 
another officer of the government as acting commissioner. 
Section 702 does not explain who these other officers that may 
be directed by the President are, and it also doesn't contain 
any expressed time limitations on acting service.
    As mentioned, the Vacancies Act usually provides the only 
way for an employee to temporarily perform the functions and 
duties of a vacant office. However, on its own terms, it is 
only exclusive unless another statute expressly designates 
someone to serve as an acting officer. Section 702 does 
designate another government official, the deputy commissioner, 
to temporarily perform the commissioner's duties as acting 
commissioner.
    But just because the Vacancies Act does not apply 
exclusively to the position of the commissioner, that does not 
necessarily mean that it does not apply at all. It is possible 
that both the Vacancies Act and Section 702 could apply to a 
vacancy in the commissioner's office. If the two statutes are 
consistent, then this doesn't present any problems. But if 
there are inconsistencies between those two statutes, this 
could lead to challenges to an acting officer's authority. 
Imagine that one statute authorizes acting service but the 
other prohibits it. An acting commissioner might take an action 
under the more permissive statute, but someone could argue that 
the limitations of the other statute prohibited that action. If 
such an action was challenged in court, the judge would have to 
figure out not only whether this first possibly more permissive 
statute actually did permit the action, but also it would have 
to figure out which of the two conflicting statutes should 
prevail.
    With respect to the commissioner's office, such a conflict 
is possible. The Vacancies Act creates a detailed scheme 
setting out who may serve and how long they may serve. On the 
other hand, Section 702 is silent on a few issues and could 
possibly be read as more permissive. However, it is also 
possible to read these two statutes as consistent.
    There is very little case law interpreting these two 
statutes, so ultimately it is hard to reach any definite 
conclusions on this issue.
    Thank you very much, and I will be happy to answer any 
questions you may have.
    [The prepared statement of Valerie Brannon follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman JOHNSON. Thank you.
    What is the one thing you want us to get out of that 
comment?
    Ms. BRANNON. There are some complicated statutes that 
govern this vacancy.
    Chairman JOHNSON. And you follow the statutes?
    Ms. BRANNON. I do.
    Chairman JOHNSON. Thank you very much.
    Mr. Richtman, welcome. Thanks for being here. Please 
proceed.

    STATEMENT OF MAX RICHTMAN, PRESIDENT AND CEO, NATIONAL 
       COMMITTEE TO PRESERVE SOCIAL SECURITY AND MEDICARE

    Mr. RICHTMAN. Thank you, Mr. Chairman, Ranking Member 
Larson, and members of the subcommittee. On behalf of the 
National Committee to Preserve Social Security and Medicare, I 
want to thank you for inviting me to testify at this morning's 
hearing regarding the challenges faced by Social Security after 
being led for 5 years--over 5 years by a series of acting 
commissioners.
    Before I present my statement, I just want to say on behalf 
of the millions of members and supporters of the national 
committee, I would like to express my thanks to you, Chairman 
Johnson, for your many years of leadership on matters involving 
Social Security and, of course, for your distinguished service 
to our country for many years prior to that.
    Turning to the subject of today's hearing, I believe that 
extended periods without a confirmed commissioner is obviously 
not desirable. When Congress decided to make the Social 
Security Administration an independent agency back in 1994, one 
of the goals of the legislation was to provide the agency with 
continuity of leadership. In fact, I am told the Senate-passed 
version of the bill required the President to nominate a new 
commissioner within 60 days of enactment.
    While desirable, we do not believe that the problems 
confronting Social Security can be fixed simply by nominating 
and confirming a new commissioner. Congress must also provide 
the new commissioner with the resources he or she will need to 
do the job, and that means adequate funding for this important 
agency. Unfortunately, what we have seen in recent years is a 
steady decline in funding for the agency at exactly the same 
time the workload has soared.
    Mr. Larson mentioned 10,000 people being added to the roles 
every day. It is about a million additional people added every 
year for the last few years. This is not a time to be reducing 
funding. In fact, the Social Security Administration's budget 
has been cut by a total of about 11 percent adjusted for 
inflation. These cuts have forced the closing of field offices, 
shortening of office hours, reductions in overtime, shrinking 
of staff. And automation has helped some but not enough to 
prevent the deterioration in levels of service.
    So it is not surprising that the quality and timeliness of 
the service has declined. Getting an appointment to file a 
claim can take weeks, and some offices--and those who visit an 
office without an appointment have to wait hours in many cases. 
Service on the 800 number line has declined as well. Currently 
it takes about 20 minutes to reach a service representative. In 
2010 it took about 3 minutes. Many seniors simply hang up--give 
up and hang up. In fact, we called the 800 number when you 
gaveled the hearing to order. We are still on hold. We are told 
it will be about an hour.
    So I wanted to also make a comment about how disturbing it 
is when you look at the disability hearing situation. Over the 
past few years, a historically high backlog has grown. There 
are over a million cases waiting to be heard. Right now it 
takes about 600 days on average for a decision to be made. The 
human hardship caused by these delays is enormous. People are 
losing their homes, delaying healthcare declaring bankruptcy. 
And they are dying. About 10,000 people die each year while 
waiting for a decision.
    If this hearing goes for about 2 hours, two people will die 
during the course of the hearing waiting for an appeals 
decision. Social Security's administrative funding has been 
neglected for far too long. I believe it is time for Members of 
Congress to adequately fund Social Security so it can provide 
the vital services that American seniors expect and deserve.
    During the debate on the 2018 omnibus appropriations, the 
national committee urges members to provide the agency with 560 
million additional dollars over this year's appropriated level 
of $12.4 million. This will increase and help restore some of 
the cuts that were made since 2010, and cover--or begin to 
cover inflation. We believe similar increases should be in the 
2019 appropriations bill.
    To conclude, Mr. Chairman, we agree completely that having 
a confirmed commissioner is important, but it is also important 
that the agency has adequate funding. These two must be united 
if the special--if the Social Security Administration is able 
to meet its obligations to the American people.
    Thank you very much.
    [The prepared statement of Max Richtman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman JOHNSON. Thank you, sir.
    Mr. Stier, welcome, and thanks for being here. Please 
proceed.

  STATEMENT OF MAX STIER, PRESIDENT AND CEO, PARTNERSHIP FOR 
                         PUBLIC SERVICE

    Mr. STIER. Yeah. Thank you very much, Mr. Chairman, ranking 
Member Larson, members of the committee. My name is Max Stier. 
I am the president and CEO of the Partnership for Public 
Service. We are a nonpartisan, nonprofit organization working 
to make the Federal Government more effective.
    This hearing is a terrific hearing to focus on a critical 
issue. We have a broken system. No other democracy on this 
planet has a new administration walking in with the requirement 
of putting in 4,000 political appointees, 1,200 of them 
requiring Senate confirmation. So this is an issue that 
actually extends beyond Social Security but clearly is a big 
issue here as well. And your hearing is critical to make sure 
that the spotlight is placed on it.
    The problem is a big one. No administration has staffed 
quickly. This administration is well behind prior 
administrations. We tracked the top 630-some-odd appointments 
of those 1,200 that require Senate confirmation. Of those, only 
274 are actually filled. And you are looking at 218 where there 
is no nominee. That is a big problem. There are big chunks of 
government where a critical leader is simply not in place.
    Mr. Chairman, you made a great point in your opening 
comments. It matters. To have a temporary or an acting 
individual, in my terms, it is the equivalent of a substitute 
teacher. They may be a wonderful educator, but they get no 
respect. Everyone knows they are not there for the long-term. 
People understand that they are not going to take on the tough 
issues or think about long-term solutions. And their decisions 
aren't going to be viewed as final. It is a real problem. Great 
people may be operating in those positions, but they are 
operating with two hands tied behind their back. That is no way 
to do things.
    At SSA, it is not just the commissioner. You are talking 
about three Senate-confirmed positions, and all three don't 
have a permanent person in place. You only have one nominee for 
the IG. That is a big problem. And then it cascades through the 
rest of the organization where you have acting individuals in 
critical spots. So you have an acting deputy commissioner for 
operations, an acting deputy CIO, acting chief information 
security officer. And three of the ten regional commissioners 
are also acting.
    Having acting leadership at the top has consequences 
throughout the organization. Hard to recruit people, hard to 
make decisions for full-time folk if you don't know who the 
real boss is going to be. That is a big problem. These 
positions are critical to all kinds of issues that are 
fundamental to the operations of SSA. And we need to make sure 
we get folks in there.
    A couple of facts about SSA that are worth focusing on for 
a second. Note: Only about 4.3 percent of the SSA population 
workforce itself is under the age of 30. There are six times as 
many people in the IT workforce over the age of 60 than under 
the age of 30. You are not going to get done the critical work 
you need to do without the right workforce, and you don't have 
it there right now.
    So, one--so what can you do about it? This committee 
hearing is fundamental. So kudos to you for doing it. Five 
ideas for you. I am going to run through them fast.
    Number one. It is not just getting someone in place. That 
is fundamental. But you need to find the qualities and 
competencies needed for these roles that are open. It is not 
good enough just to have someone in the seat. You need to make 
sure you have got someone who has got large management 
capabilities, can deal with the IT transformation that needs to 
take place. So identify those capabilities.
    Number two, you need a job--that is a job description. 
Number two, you need a performance plan. You need to make sure 
that they are actually being held accountable for specific 
things that need to be changed, and that needs to be 
transparent in real-time so you understand whether they are 
doing the job and it is being done well.
    Number three, use the data that you already have. The 
Federal employee viewpoint survey is a powerful tool to tell 
you what is going on in these agencies. Not a good story at 
SSA. In 2012, it was number six in our best places to work 
rankings. Today it is number 12 out of 18. That is a big drop. 
And if you look at the numbers themselves, there are some big 
issues. So on the question, for example, employees are 
encouraged to find better ways of doing things, at SSA, that is 
only 55 percent of the employees would say yes. That number is 
18 points lower than our private sector benchmark. On the 
questions about are my talents being used while in the 
workplace at SSA? Again, that is 54 percent. That is 23 percent 
below a private sector benchmark.
    Fundamentally, though, you have an incredibly mission-
driven workforce. So one area where their numbers are better 
than the private sector to the question, I am willing to put in 
the extra effort to get my job done. You have got 95.6 percent 
of the employees that are saying that. They care about what 
they are doing.
    So now number four recommendation, consider tying the 6-
year term to confirmation. The chairman noted that you are 5 
years into a term. You do need a long tenure if you are going 
to get real work done and to do real transformation. You know, 
average tenure of an ordinary public political appointee is 18 
months to 2 years. That is one of the big problems for 
government. You have got short-term leaders not aligned to the 
long-term needs of the organizations they run. A 6-year term 
makes sense, but only--it makes sense only if it is real, if 
the person walking in has that full tenure. That is not what 
you have right now.
    And then you all have responsibility for more than the 
Social Security Administration. Please do this for the other 
agencies you are looking out for as well, because these same 
issues play out across the board.
    Thank you very much.
    [The prepared statement of Max Stier follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman JOHNSON. Thank you, sir, for your testimony.
    We will now turn to questions.
    As is customary for each round of questions, I will limit 
my time to 5 minutes and will ask my colleagues to also limit 
their time to 5 minutes.
    Ms. Curda, yesterday GAO confirmed what we all know--Social 
Security has been led by an Acting Commissioner for too long.
    What does it mean for an agency to be in violation of the 
Vacancies Reform Act?
    Ms. CURDA. Chairman Johnson, after the expiration of an 
official's allowed period of acting duty, the position is to 
remain vacant. And the nondelegable functions and duties of 
that position can only be performed by the head of the agency. 
To determine any impact, the agency would need to determine if 
any actions that were taken by the acting commissioner after 
November 17 were nondelegable. In other words, they could only 
be performed by the commissioner and nobody else. Any such 
action taken in violation of the act would have no force or 
effect and may not be ratified. Where violations have occurred 
in the Vacancies Act, it is the agency's responsibility to 
determine if any actions that were taken were nondelegable.
    Chairman JOHNSON. Thank you.
    Ms. Brannon, right now we are more than 5 years into the 
current 6 year Commissioner's term. Knowing how long the Senate 
can take sometimes, if the President wanted to, could he 
nominate someone for the next term right now? And if not, why 
not?
    Ms. BRANNON. The President could probably nominate someone 
for the next term. I think the Social Security Act, however, 
would prohibit--while there is still a vacancy in the office, I 
don't think someone could be appointed to that next term 
because the statute says that if a commissioner is appointed to 
the term of office after the commencement of that term, they 
may only serve for the remainder of that term. So so long as 
there is a vacancy in the office, anyone who is appointed in 
the middle of a term can only serve for the remainder of a 
term.
    Chairman JOHNSON. So do we need to change that rule?
    Ms. BRANNON. You could.
    Chairman JOHNSON. Thank you very much.
    Mr. Larson, I recognize you.
    Mr. LARSON. Well, thank you, Mr. Chairman. I want to thank 
the witnesses as well.
    I am struck by a number of things, and I will start with 
what Mr. Richtman had to say, and that is that by putting 
somebody in place is not going to solve, at least listening to 
all your testimonies, the problems that Social Security faces 
long and short-term. And, Mr. Stier, I especially liked the 
example where you say we put somebody in for a short-term 
period to solve what are long-term problems for the country.
    Ms. Curda, you elaborated a lot on the technology aspects 
of this and said while, on one hand, that Social Security was 
addressing some of these issues, that they failed to follow 
through. That failure, is that based as Mr. Richtman said, on 
lack of resources, or is it technical ability? Is it because of 
what Mr. Stier said? Because the age of people is different and 
people with different capabilities aren't in those positions?
    Could you elaborate more on what GAO's findings were?
    Ms. CURDA. Certainly.
    I think the main issue with SSA's information technology is 
the size of the legacy IT operations that they have. They have 
systems that are running on software that uses a programming 
language that was most prevalent in the 1950s and the 1960s 
called----
    Mr. LARSON. Wonderful.
    Ms. CURDA [continuing]. COBOL.
    Mr. LARSON. Is it radioactive?
    Ms. CURDA. I don't think they even teach it anymore. And so 
they are dependent on people----
    Mr. LARSON. So we are operating in the--and Social Security 
takes great pride in saying that its loss ratio is like 99 
percent, which makes it one of the most--and the envy of the 
private sector insurance world would love to have that kind of 
loss ratio, and yet we see these glaring failures. You know, 
wait times, 600 days, as the chairman was saying, to me, that 
is totally unacceptable, 4-hour waits. Are they still on hold 
waiting for your call, Max?
    Mr. RICHTMAN. Yes, sir.
    Mr. LARSON. This is just--we cannot, as an institution, as 
government, you know, sworn to serve our constituents, to allow 
this to go forward.
    What improvements could be made and does it need the 
funding of these resources to overhaul a system that has been 
in place since the 1950s?
    Ms. CURDA. We would recommend that they--we have 
recommended that they modernize their legacy systems.
    Mr. LARSON. Well, when you recommend that, what does that 
mean? Do you suggest a specific remedy? Do you--specific 
technology?
    Ms. CURDA. Well, let me just break it down for you.
    They spend currently $1.8 billion on information 
technology, and that is split into two major categories. 1.1 
billion is spent on operations and maintenance of those legacy 
systems.
    Mr. LARSON. Oh, wow.
    Ms. CURDA. And only 0.7 billion is spent on development, 
which is essentially where you get to create new and better 
systems.
    So a focus on shifting more resources into the development 
side is needed. They have 66 total systems, of which six are 
major systems.
    Mr. LARSON. So let's take it as a given based on what you 
are saying, and we can gather this from the written information 
as well, that we are woefully negligent on the technology side. 
But as Mr. Richtman pointed out, still for that human contact, 
and as Mr. Stier pointed out with the age of the agency people 
there, what will we have to do there as well?
    Mr. Richtman, you know, it seems to me like we have a----
    Mr. RICHTMAN. I think the resources are inadequate across 
the board. I don't have a specific number. I did point out that 
we have written to the appropriators asking for an addition of 
about $460 million for fiscal 2018 and about that much for 
fiscal 2019.
    You know, I mentioned to Mr. Larson when--before the 
hearing started that I was in Florida for a townhall meeting 
with one of your colleagues last Friday night. And a woman 
asked a question. She started by saying she waited for 4 hours 
to talk to somebody in a Social Security office. And then she 
said, ``Don't you people in Washington understand what it means 
to have to wait 4 hours or to wait 600, 700 days to get a 
hearing?'' And she included me in ``those people in 
Washington'' when she said that.
    And she did want to understand why Members of Congress 
don't appreciate all of that, and I didn't really have a good 
answer for her.
    Mr. LARSON. Well, I know my time is up, Mr. Chairman, but I 
would like, in a second round, to come back to Mr. Stier.
    Thank you for your five recommendations, because I would 
like to explore those further. And, Ms. Brannon, we both 
commented when you were speaking that, wow, did Congress really 
write that? Based on how you were explaining it, we could 
barely follow it.
    But one thing we would like to see is what your 
recommendation would be to improve it. This happens frequently 
at hearings. I don't know if my other colleagues feel the same 
way. But oftentimes we get people who tell us very specifically 
what they think is wrong but then don't offer a suggestion as 
to how we should improve it or how we could make it better. So 
in the next round.
    Thank you Mr. Chairman.
    [Member Submission for the Record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman JOHNSON. No. Thank you for the questions. And 
thank you for your responses.
    Mr. Holding, you are recognized.
    Mr. HOLDING. Thank you, Mr. Chairman.
    Mr. Stier, I am going to follow up a little bit on my 
friend Mr. Larson's line of questioning. This subcommittee has 
talked a lot about the critical need for SSA to update its 
seriously aging IT systems. What is it called? Thought it was 
Cobalt, COBOL from the 1950s? And even SSA has stated that 
their previous strategy of incremental modernization isn't 
going to get the job done, and there is a critical need to 
undertake a large multiyear approach to updating its aging IT. 
In 2016, GAO testified before this subcommittee about SSA's 
struggles, the strategic planning and long-term planning when 
it comes to IT.
    So, Mr. Stier, maybe you could speak to the importance of 
having a confirmed commissioner in place to implement and 
execute a long-term multiyear task like IT modernization which 
seems to be a big issue not only for SSA but a lot of other 
government agencies as well.
    Mr. STIER. Yeah. Absolutely. And I think you put your 
finger on something vital there.
    It is across government. The Federal Government spends $80 
to $90 billion in IT. The overall numbers are even worse across 
government than in SSA. It is about 70 percent in operations 
and maintenance. And the workforce challenges are also spread 
across government.
    You do have to have long-term leadership to--not only to be 
able to see a project like that through but also to make the 
commitment to prioritize it, because it is so hard and so 
difficult. No one in their right mind is going to do it if they 
are going to be around just for the first year of paying and 
not see any benefit later on down the road. I would say that 
GAO is one of the best run organizations in government, not 
in--substantially because you got a 15-year term. And whether 
it is Dave Walker or Gene Dodaro, you know, they know that, 
when they make the investments in their people, their systems, 
whatever, they are going to see that pay off for themselves. 
So, again, you have a better alignment.
    Here is what I think--what I would argue that you need to 
do in addition to the resource question here. One, it is not 
just the amount of money. It is actually having multiyear money 
and certainty. One of the big challenges, you know, you think 
about a business that you are running. You have capital 
budgets. You have the ability to actually think longer term 
about the kinds of investments that you are going to make. And 
agencies don't have that. When you talk about these IT system, 
large investments, very, very hard to actually see them through 
when you have very short-term money.
    Number two, you need executives that actually understand 
technology. It is not just your IT workforce. You need 
executives themselves that understand how to drive these 
transformation projects. When the IRS had its major 
transformation the last go-around, for the first time in maybe 
ever, and certainly a long time, they didn't hire a tax expert. 
They hired a technology guy, Charles Rossotti. And he was able 
to change the IRS in a pretty dramatic way. Different model. 
You had someone who understood the large scale transformation 
that needed to take place the technology around the IRS. 
Problem being that once you do it, you know, 15, 20 years ago, 
it is not good enough.
    One of the challenges for government is we are catching up 
to the past. And you see these big long projects that 
fundamentally aren't agile, that are not actually using the 
techniques that the best in class companies do, because they 
are thinking about a 10-year project, or whatever it might be, 
rather than the more iterative ``We can make mistakes, but we 
are going to get better and better.'' And that kind of 
development is fundamental, especially as the shelf life of 
technology is getting shorter and shorter.
    It is not good enough to build these long-term systems, 
expect them to live 30 or 40 years. They ain't going to do 
that. You have to look at more commercial, that is practice, 
off the shelf stuff. You need a very different level of 
technology. You need different kinds of people like what you 
will see in the United States digital service, which I think is 
a good resource.
    But I think this is a great topic for you. You know, 
absolutely it begins with leaders. If you don't have leaders, 
none of this other stuff is going to matter. But it doesn't end 
with leaders. You need to have the technology transformation to 
change the capability of the organization.
    Mr. HOLDING. Thank you, Mr. Stier.
    Now, I want to switch gears really quickly to Ms. Bannon. 
And if this is beyond your brief, you can get back to me in 
writing.
    I understand there is a lawsuit pending at the Supreme 
Court related to the appointment of a handful of SEC 
administrative law judges. And in response to the case, the SEC 
commissioners have recently ratified the appointment of all the 
ALJs to ensure their legitimacy. But the Supreme Court's ruling 
in the case could have a serious--could have serious 
consequences for all of SSA ALJs appointed by an acting 
commissioner.
    If you are able, could you walk me through these possible 
legal ramifications?
    Ms. BRANNON. So the concern in that case is that these ALJs 
are officers of the United States within the meaning of the 
appointment clause of the Constitution. If they are officers of 
the United States, then they have to be appointed in accordance 
with the constitutional procedures. The ratification was an 
attempt to appoint them in accordance with those procedures.
    The situation I think is analogous to the ALJs in Social 
Security. There are possible differences. And I think that was 
recognized by the courts that are considering this issue.
    I would be happy to--there are a lot of complex issues 
involved in this, so I would be happy to explore that more at a 
later date.
    Mr. HOLDING. Right. Thank you very much.
    Mr. Chairman, I yield back. Chairman JOHNSON. Thank you.
    Mr. Pascrell, you are recognized.
    Mr. PASCRELL. Thank you, Mr. Chairman.
    Good morning. All of you are experts, really, in this area. 
You did a terrific job. I am very interested in your testimony, 
Mr. Stier, because I think it is really a pass for us. You are 
demanding more of us, and we should have oversight that fights. 
Right now it is kind of vague, foggy. And that is how a lot of 
people like it. So thank you for holding this meeting, Mr. 
Chairman, ensuring we have leadership in this critical area of 
Social Security and the Social Security Administration.
    There is no way an organization can effectively do its job 
without someone at the top planning for the long-term. We heard 
from Mr. Richtman the long-standing problems at the 
Administration, Social Security Administration. And that simply 
is not going to be remedied by appointing, confirming a new 
commissioner. We don't even have a nominee yet let alone a 
person to take the job. That is unacceptable. We need to 
provide the Social Security Administration with more resources 
to reduce wait times for paying benefits, approving benefit 
applications, and responding to inquiries from the public.
    You can do go down many lists whether you are talking about 
transportation, educational technology, regardless of what you 
are talking about. Trade negotiations. We don't have people to 
do the job. We just don't. And you can't ignore that issue.
    This is a pattern, a plague on both parties. No one is 
individually responsible. No party is individually responsible 
for this. We go along to get along here.
    Across the country there have been a closure of 64 field 
offices. Disability hearings backlog with an average of 605 
days. I am just thinking of all the folks that I have come to 
my office for help for this, 605 days.
    In New Jersey, wait times in Newark average 668 days. That 
is almost 2 years. I mean, how long do we have to live? That is 
an interesting question. In Jersey City, 703 days. The South 
Jersey hearing office has one of the worst processing times in 
the Nation, 739 days. And we talk about our responsibility to 
our veterans. What about our responsibility to our seniors? 
They served the country. They gave it the best. They made it 
the greatest country in the world.
    You know, this amounts to nearly 25,000 cases waiting to be 
heard. It sounds like the VA. These types of numbers are 
outrageous, and they are unacceptable, and we cannot argue them 
away. They didn't happen overnight. It is not a Republican 
problem. It is not a Democratic problem. It is our problem, 
lack of oversight. They happen when congressional Republicans 
choose many times to starve the agency. Fewer resources mean 
fewer staff and tools which means more people are left out in 
the cold waiting for help.
    Adjusted for inflation, the Social Security Administration, 
the budget has declined 11 percent in the last 7 years. During 
this same period, the number of Americans receiving Social 
Security benefits has climbed by 15 percent, 8 million people. 
We are going backwards.
    Mr. Richtman, let me ask you this question. Can you talk 
about the enormous service delivery challenges facing Social 
Security in future years as baby boomers reach retirement age? 
What impact is that going to have?
    Mr. RICHTMAN. I think the problems that you have outlined 
will be aggravated. There will be more people brought into the 
system. If the trajectory of funding continues, there will be 
less money to help more people. So I think it is pretty 
obvious, as you said, we are going the wrong direction.
    Mr. PASCRELL. And what that does is increase the lack of 
credibility in government. And it seems to me that that may be 
an objective of some people who get elected to come to this 
House.
    Just one more question, Mr. Chairman.
    Will these service delivery challenges be helped or hurt if 
the Social Security agency receives the additional $560 million 
Ranking Member Neal and Larson and Davis have requested? Is 
that going to help it? Hurt it? What? What is it going to do?
    Mr. RICHTMAN. Absolutely help it. We sent a letter to the 
House endorsing the legislation you just talked about. And we 
think it would make an enormous difference.
    We are trying to catch up now, and that is what this 
additional funding would allow.
    Mr. PASCRELL. I want to thank the honesty of all the panel 
members and thank the chairman again for bringing this subject 
to the American people.
    Thank you.
    Chairman JOHNSON. Thank you.
    Mr. Schweikert, you are recognized.
    Mr. SCHWEIKERT. Thank you, Mr. Chairman.
    And forgive me if I take a slightly one-off. I absolutely 
agree with everything that has been said here about, you know, 
the time for revolution and technology, you know, the 
mechanisms, if it is--and I think the actual number is, what, 
10,300 baby boomers functionally retiring a day now since 2008.
    So if you--10,300 is 3.7 million a year. But my fear is--
and some of this is going to be to you, Mr. Richtman. I 
actually think we are whistling also by the crisis. If I sit 
here and do math, Medicare Social Security will be adding 130 
billion a year in additional entitlement spending. Okay. Think 
of that. Every 5 years that is the value of the entire Defense 
Department. So every 10 years, just the increased spending is 
two defense departments. Since 2008, Social Security Medicare 
account for 72 percent of all the inflation adjusted growth and 
spending here in government.
    Today, someone retiring in Medicare, inflation adjusted 
dollars, like-for-like dollars, put in $140,000 and takes up 
$420,000. My little girl, when she is a teenager, there will be 
only two workers, so one couple supporting a single retiree. 
Yeah, we have problems in their IT system, problems in their 
budget, problems in the outreach and the quality of customer 
service. And we have a crisis that becomes one of the greatest 
systematic threats ever to this Nation, and it is not decades 
away. It is in a dozen years.
    And so, Mr. Richtman, first, is there something wrong in 
anything I just said mathwise?
    Mr. RICHTMAN. Well, you know----
    Mr. SCHWEIKERT. Is there anything wrong I just said 
mathwise?
    Mr. RICHTMAN. What is wrong with what you said is that 
these programs, Social Security, and a good part of Medicare is 
paid for by the payroll tax. And that is money that is 
dedicated to these programs.
    Mr. SCHWEIKERT. Okay. And your point is?
    Mr. RICHTMAN. My point is, you know, we are not a group 
that has our heads buried in the sand. We realize if nothing 
happens in 2034 there will not be enough money to pay every 
beneficiary every penny that they are supposed to be paid. We 
are not saying don't do anything, ignore the problem. First of 
all, it is not a crisis. The crisis was 1983 when we were 
looking at six months.
    Mr. SCHWEIKERT. So the----
    Mr. RICHTMAN. So my--if you can let me answer.
    The answer is not to start talking about cutting benefits, 
cutting the COLA, raising the retirement age. The answer is 
looking at ways, reasonable ways, to bring more revenue into 
the program.
    Mr. SCHWEIKERT. Okay. So your solution is the additional 
tax revenues.
    Mr. RICHTMAN. My answer is to make--the payroll tax----
    Mr. SCHWEIKERT. Let me finish. Let me finish.
    Over the next 30 years--and, now, this is not inflation 
adjusted dollars, just Medicare adds $40 trillion in debt. Just 
Social Security adds 19 trillion. I think the greatest 
systematic threat to seniors is almost what you just said, the 
unwillingness to actually either get leadership at this agency, 
leadership from all of us, leadership from the advocacy groups 
to actually do math, because, Mr. Chairman, math always wins.
    Chairman JOHNSON. Thank you.
    Mr. Kelly, you are recognized.
    Mr. KELLY. Thank you, Chairman. And thank you all for being 
here.
    Ms. Bannon, you had talked about the SSA being in violation 
of the Vacancies Act. If the President were to nominate a 
commissioner, would the SSA still continue to be in violation?
    Ms. BRANNON. So the Vacancies Act says that someone can 
serve either for a 300 term of--term of days starting from the 
vacancy. That is gone. Or can serve during the pendency of a 
nomination. So Ms. Berryhill would likely be serving in 
compliance with the Vacancies Act if she meets the criteria for 
a senior official who is permissively directed by the President 
to serve and if a nomination other than her is submitted to----
    Mr. KELLY. Okay. I want to make sure we are doing that.
    Now, the other thing--question I want to ask, because I 
think we are all on the same topic and the same concern, and 
that is the viability of what it is that we put out for folks 
and the fact that it is funded by people in the workforce, 
because it is that--the wage taxes that fund us.
    I want to ask you something, because sometimes it comes 
down to how do we spend the dollars we get in. In 2008, the 
previous administration decided to develop an in-house software 
program to replace the commercial off-the-shelf disability 
determination system. The goal was to save money, right, and 
improve efficiency. However, to date, we spent hundreds of 
millions of dollars, missed all the deadlines, and don't still 
have the project complete. SSA has spent well over $420 million 
on this project even though a commercial off-the-shelf program 
has existed for decades at a cheaper cost. And, unfortunately, 
under an interim director, this effort for an in-house program 
has continued.
    Are any of the witnesses familiar with the issue? And do 
you think not having a confirmed SSA commissioner has been part 
of the problem?
    Mr. Stier, I think you are spot on with this. So if we had 
somebody there--and I think the thing that we lack, and I think 
we all talk about this, Social Security can continue on this 
type of a program because it is not in the private sector. And 
what I am wondering about is, is it the process that is the 
problem?
    Mr. STIER. So I think that, unfortunately, there is a--and 
I am answering the question----
    Mr. KELLY. No. It is okay. Because you are all--we are all 
concerned about the same thing.
    Mr. STIER. I mean, I think the--there are multiple 
contributors to the challenge here and----
    Mr. KELLY. But my question, if you are in the private 
sector and you have a problem that you have to solve; and the 
reason you have to solve it, because if you don't solve it, it 
means you go out of business. Unfortunately, there is no 
deadlines for any of this. There is no possibility this ever 
going away. And we keep saying what we have to do is find more 
revenue somewhere.
    And so I look at this, and we say we sent $420 million on a 
project even though there was an off-the--there was already a 
commercial off-the-shelf piece available. But we decided not to 
do that. And you could only do that if it is not your own 
money. But if it is your money and you have to stay open, you 
do what is in the best interest of the people you serve and the 
money that you have to work with. So I have always wondered is 
it a lack of money or is the fact that we don't spend money the 
right way?
    Mr. STIER. So my view is you are going to have, again, a 
combination of multiple things here. It actually is more 
complicated. So sometimes the model for folks in thinking about 
how you run a government agency is just run it like a business. 
The answer is you cannot run the government like a business. 
You----
    Mr. KELLY. I understand that. We are $20 trillion in the 
red.
    Mr. STIER. There you go. Correct. But you can apply 
business principles. It is not sufficient simply to look at----
    Mr. KELLY. Okay. Can I ask you? Because you just said we 
could apply business principles.
    Mr. STIER. Yes.
    Mr. KELLY. There is no CEO serving on any private entity 
right now that would be looking at this and say ``I still 
deserve to be in charge.''
    My concern is, as we go through this--we have been waiting 
5 years, right, for a commissioner? So it just didn't start 
now. But this process of getting through--and I have got to 
tell you, if somebody from the private sector who is looking to 
come on and somehow help his country or her country by serving 
in government and then looking at the process they have to go 
through and be on the sidelines waiting to be approved, you 
would have to be a damn fool to sit there waiting for that to 
happen. I just think we lose so much enthusiasm, so much 
passion. The fact that we leave people sit on the sideline and 
say, ``Some day you will get a chance to get on the field, but 
not yet.''
    Mr. STIER. Yes. And your proposition is absolutely correct 
for the political appointees. It is also true for the career 
folks as well. So you have a lot of great talent that actually 
would like to serve their country. The process of hiring is 
overly complex. It is too long.
    Mr. KELLY. That is my point.
    Mr. STIER. You are entirely right. There is opportunity to 
bring great talent in. And the process itself is dissuading 
really good people from pursuing those options. And that is 
something that ought to be changed, and it is something that, 
you know, frankly, again, that you have some opportunity to 
change.
    So when you would think about the rules that govern the way 
our government operates were largely created in a different 
era. You have a legacy government that hasn't kept up with the 
world----
    Mr. KELLY. One of the things I have noticed since I have 
been here is, you know, when you ask somebody, So why do we do 
it this way? They say, well, that is the way we have always 
done it. And I said, well, that that is not a good process 
going forward.
    I find your testimony really good. And I just--and I know. 
There are so many really patriotic people that serve in the 
government. It has got to be very frustrating to be watching 
this and say ``I know it could be better if we could just get 
this process changed and make it more--make it something that 
makes sense.
    So I appreciate you being here. Mr. Chairman, thanks for 
having this. I think we all want the same thing for all our 
people because we know who funds it. It is the people who are 
working and the people who pay them to work.
    Mr. STIER. Yep.
    Mr. KELLY. That is at a wage tax.
    So thanks for being here. Thanks, to all. I really 
appreciate everything you all are doing.
    Chairman JOHNSON. Mr. Rice, you are recognized.
    Mr. RICE. Thank you, Mr. Chairman. I am struck by the 
continued testimony we hear about various government agencies 
and their inability to modernize their IT. And I think that, 
you know, certainly it is not going to solve all the problems 
but it is going to go a long way toward solving a lot of these 
problems. I think it would definitely affect the 600A wait 
time. I think it would probably cut down on the need for some 
of the employees and probably cut down on some of the needs for 
funding.
    So Mr. Stier, I want to ask you. This, today, is about 
Social Security and--I guess, Ms. Curda. You said they have how 
many systems running on legacy programs?
    Ms. CURDA. They have a total of 66 systems.
    Mr. RICE. Sixty-six systems.
    Ms. CURDA. Yes.
    Mr. RICE. That seems like an awful lot. Do they really need 
66 systems?
    Ms. CURDA. That, I don't know. But someone had referred to 
the modernization of their disability case processing system, 
and that is a case of where you have got 54 disparate systems 
operating across the States that are used to process the 
disability claims. And the point of the modernization is to 
bring all those together.
    Mr. RICE. So right now there are 54 different systems 
across 50 States?
    Ms. CURDA. Yes.
    Mr. RICE. So some States have more than one system, and 
they can't necessarily talk to each other?
    Ms. CURDA. Probably not.
    Mr. RICE. Do you know how many of those are these legacy 
programs that have been around for 50 years?
    Ms. CURDA. I am sorry. Could you repeat that?
    Mr. RICE. Do you know how many of those are these legacy 
programs that have been around for 50 years?
    Ms. CURDA. No, not specifically.
    Mr. RICE. Okay. You know, we met with the IRS a month ago, 
and they said that they had 300 points of failure, which means 
that--over 300. It was like 320. Which means that they have 
programs that they are running, 300 different systems, where 
they have just one guy who knows how to program it because it 
is so old. And if he dies or he retires, they are in trouble.
    Ms. CURDA. Yes, there is the same problem at the Social 
Security Administration. They have had to rehire people who 
have retired who have the knowledge to do the programming of 
the COBOL systems.
    Mr. RICE. You know, Mr. Larson likes to say that Social 
Security is a really good insurance policy. It is the most 
effective insurance policy you can buy. So just think of an 
insurance company, say MetLife or Aetna. Do you think they are 
all running these legacies programs, any of them?
    Ms. CURDA. Probably not.
    Mr. RICE. Probably not.
    Mr. Stier, why is it that, you know, it is not just Social 
Security, it is not just the IRS. CMS, they testified in front 
of us last week about the opioid crisis. And I asked them, can 
they track the prescriptions? You know, we are paying for it. I 
mean, the Federal Government is the biggest drug dealer in the 
world. I mean, we are the source of the money that buys these 
opium prescriptions.
    Medicare and Medicaid. And I asked them if they could track 
those prescriptions and tell how many pills people are buying. 
She said, We could in 40 States. Well, we have 50 States.
    Air traffic control, we are working on a system that is 
developed just after World War II. They are handing slips of 
paper back and forth. Why is this a systemic problem in 
government. Why is it that, you know, you look at every private 
agency, and they have all long, they don't even know how to 
spell COBOL. That is long forgotten. Why is this a systemic 
problem in government?
    Mr. STIER. Three answers: Number one, when you look at the 
top of the House, the leadership, you have got the short-term 
leaders that are not aligned to the long-term needs of the 
organizations they run. That is the fundamental here. Very hard 
to get, you know, you get the exception. You will get someone 
who comes in, who is willing to make all the hard calls, take 
all the lumps, even knowing that they are not going to get any 
of the benefit on their watch. But that is number one.
    Number two, is you have real challenge around realtime 
performance information in government. In a private sector 
organization, you have clarity of outcome because you have a 
financial metric you are trying to achieve. Government is 
trying to seek public goods----
    Mr. RICE. In other words, it is not their money.
    Mr. STIER. I am sorry?
    Mr. RICE. It is not their money.
    Mr. STIER. No, it is not----
    Mr. RICE. The people who are running it----
    Mr. STIER. It is a different point. It is not that it is 
not their money, it is that their performance goals are not 
about money. Their performance goals are about a public good. 
So if you are working at the State Department, it is about 
national security.
    The measurement in government in the public sector is 
harder. So I am trying to give you what I think are the root 
causes. And the third one is--I am going to say this and I am 
hoping that it will be taken in--is you. And it is Congress. 
And the reality is Congress has a fiduciary----
    Mr. RICE. Amen.
    Mr. STIER [continuing]. Responsibility for the executive 
branch in four different ways. Number one, is the budget. You 
are not giving budgets--you talk to me about any private sector 
executive out there, they could not run their organization. 
They had everything else that they needed with the kind of 
runway you give them. And it is not the amount of money, it is 
the fact that they don't have a budget. You have 21 CRs, or 
rather 21--yeah, it has been like 21 CRs in the last, whatever, 
how many, years. It is nuts. Can't be.
    Number two, and this is on the Senate, is they have a role, 
to play obviously, in the confirmation process. Number three, 
it is your oversight. This is a rare kind of hearing that you 
have here. You need more of them. You need to be holding the 
leadership and the executive branch accountable.
    And number 4, you need to look at the underlying 
authorization laws. Because, again, you have legacy 
organizations. You have legacy understanding of what the 
mission and goals are, and that work hasn't been done by this 
body. So with all due respect, those are my three reasons.
    Mr. RICE. I am glad you said that. I am making it my goal 
in the immediate future to try to drag some of these agencies 
into the 21st century.
    Mr. STIER. I would love to be of any assistance that I can 
possibly be on that goal.
    Mr. RICE. Thank you, sir.
    Chairman JOHNSON. Mr. Crowley, you are recognized.
    Mr. CROWLEY. Thank you, Chairman Johnson. Let me yield a 
minute to my colleague from Connecticut.
    Mr. LARSON. You know, I just wanted to followup on what Mr. 
Stier had to say. And I think the line of questioning here is 
great. I think there is some great common ground here that we 
can find. But I want to go back to another point. And I do 
believe that this is an insurance issue, and this is an actuary 
issue.
    Mr. Stier, have any of your insurance premiums gone up 
since 1983?
    Mr. STIER. This sounds like it is going to be an ugly line 
of questioning. That sounds like a rhetorical question to me.
    Mr. LARSON. It is----
    Mr. STIER. Yeah.
    Mr. LARSON [continuing]. A rhetorical question, because 
they have.
    Mr. STIER. Yeah.
    Mr. LARSON. But to your three points, one, and I think you 
also mentioned lack of a capital budget, but with this kind of 
oversight and with some of the people that we have here on this 
committee and some of their knowledge, I think with a capital 
budget, getting those kind of improvements that CEOs of a 
private sector company would do would come automatically. But 
when Mr. Richtman was asked before, I mean every, you know, 
everyone in America understands, whether it is your homeowners, 
your automobile, your health, whatever, it has risen 
actuarially. That hasn't happened since 1983, so it is no 
wonder without any kind of investment on our part that, you 
know, we find ourselves in this situation. And yet, what is 
Social Security but the full faith and credit of the United 
States Government.
    I make this point because I think this is easily addressed. 
But if we just address, and this is a point my colleague was 
making, if you just address the spending side but we don't 
address the technology and capital improvement side, and do 
that in terms of the revenue, then, you know, I think that we 
have a balancing out in a way that we could phase this in and 
work through this in a way where all Americans would benefit.
    And we could take Social Security off the list of concerns 
that we have here and let Americans all take a deep breath, 
including millennials and Gen-X's know that----
    Mr. CROWLEY. One minute.
    Mr. LARSON [continuing]. We have solved the future. I am 
sorry, Joe. Go ahead.
    Mr. CROWLEY. That is a long minute. Thank you. Thank you.
    Mr. LARSON. I was a former chairman. You know how that is, 
Joe.
    Mr. CROWLEY. You are killing me here.
    Let me thank you for this hearing today.
    And Social Security is what keeps millions of Americans 
from abject poverty. It ensures that if you are injured on the 
job and you can't return to work, you have the affordability of 
disability insurance. And it really affects the neediest, the 
most vulnerable amongst us.
    It is something that they have earned. It comes out of 
their paycheck each and every month. And that is why, this is 
what makes what has been done to the administrative part of the 
program so unconscionable, in my opinion.
    I agree with the chairman that we need a Social Security 
commissioner who is permanent. I appreciate the bipartisan work 
on this. And I really don't understand why the President hasn't 
even nominated one to be the Social Security commissioner, but 
the main problem is that the administrative funding for SSA has 
been seriously hurt since my Republican colleagues have taken 
office. As a result, we now have a wait time in Queens and the 
Bronx of over 700 days. That is 700 days wait time. That is 
nearly 2 years. And Americans are quite literally dying while 
they were waiting for their benefits to be approved. Thousand 
of Americans.
    And, again, we are talking about benefits that they have 
earned. I have a Daily News article that I would like to enter 
into the record, Mr. Chairman, that talks about the ridiculous 
wait times, including for a man who has spinal cord injuries. 
And he waits for his disability. It shows why we need to make 
sure that people actually get the benefits that they have 
earned. But the article also shows how this is a manmade 
crisis.
    [Member Submission follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. CROWLEY. There is a simple fix to the problem, which is 
to provide funds to help process benefits and adjudications. 
But the Congress has kept SSA administrative budget basically 
flat. And when you add in inflation, we are talking about 
massive cuts. Is it really too much to ask for proper funding 
so people can get through on the 1-800 number? Is it really too 
much to ask to hire more staff so people can get their benefits 
on time? It shouldn't be. So let's make it happen.
    I know over 100 of my colleagues have joined myself and my 
good friend from Connecticut, Mr. Larson, in sending a letter 
to the administration urging a fix for this problem. And if 
this Congress can afford to cut trillions in taxes for the 
wealthiest, can't we also ensure that people get the Social 
Security benefits that they have earned and they deserve.
    Mr. Richtman, I have just a quick question for you. Would 
additional funding allow Social Security to hire judges, 
attorneys, decision-writers and clerks needed to reduce the 
delays in disability appeals hearings? And would additional 
funds help Social Security decrease wait times in places like 
my district in Queens and the Bronx?
    Mr. RICHTMAN. The answer is yes. Before you arrived at the 
hearing, I commented that the National Committee to Preserve 
Social Security and Medicare has endorsed increasing the 
funding by $465 million this year, and about the same next 
year.
    It is not only the points that you raised, but there are 
people who actually develop and write the opinions. There 
aren't enough of them. That is part of the delay. And waiting 
700 days is not unusual.
    And, you know, I just wonder how many Members of Congress 
would be willing to wait 700 days to have a decision that 
important made, or to wait 4 hours to talk to someone in a 
Social Security office. Four hours, that is how long a lady 
that I met with in Florida last Friday had to wait. There is--
and I may not make any friends, but there is a Social Security 
office in the building next door, and there are two people 
there that serve everybody. And anybody can use it, but hardly 
anybody knows about it. And you don't have to wait 4 hours to 
talk to someone. You can talk to someone immediately. I have 
been in that room. I worked for a Congressman here, I worked 
for Sid Yates years ago, and I know where that office is. You 
don't wait at all.
    So I think it is important for Members of Congress to 
understand the reality of having to deal with these kinds of 
waits, or having to sell your home because you are waiting so 
long to get a benefit that you deserve. So the short answer was 
yes. The long answer I just gave you.
    Mr. CROWLEY. Mr. Chairman, let me once again thank you for 
holding this hearing and in a bipartisan spirit as well. I 
think there are things we can do to reduce this wait time and 
to help our constituents. This is not a Republican or a 
Democratic cause. It just so happens you all are a majority 
now. The responsibility here is more incumbent upon you all, 
but we want to help. Democrats and Republicans want to work 
together on this issue to address the waiting period. It is 
just unconscionable, as I mentioned earlier.
    So thank you, Mr. Chairman.
    Chairman JOHNSON. You are welcome. You know, as we have 
heard today, Social Security has been without a Commissioner 
for 5 years. We have also heard that Social Security is facing 
critical challenges that aren't going to get any better without 
real leadership. Social Security is just too important to 
continue to leave on autopilot. And that is why today, I once 
again ask the President to please nominate a commissioner 
without delay.
    Mr. President, we need a nominee, and we need one now. 
America deserves nothing less.
    Thank you to our witnesses out there. We appreciate all of 
you. Thank you for your testimony. Thank you to our members for 
being here.
    With that, the subcommittee stands adjourned.
    [Whereupon, at 11:14 a.m., the subcommittee was adjourned.]
    [Member Questions for the Record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                 [all]
</pre></body></html>
